BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
GREAT LAKES MINERALS, LLC,

Petitioner,
v.
STATE OF OHIO, JOSEPH W. TESTA, AND
JEFF McCLAIN, TAX COMMISSIONER OF OHIO,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Petition for Writ of Certiorari contains
6,769 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on July 10, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

'

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

y Commission Expires
February 14 , 2023

